SIGAR | Newsroom | Spotlight
SIGAR
About SIGAR
Audits
Investigations
Quarterly Reports
Newsroom
Careers
Contact Us
Printer Friendly
John F. SopkoRemarks to SIGAR StaffTuesday, July 3, 2012
It is a pleasure and an honor to be appointed Special Inspector General for Afghanistan Reconstruction by President Obama. And it's especially an honor to be able to work with all of you on this important mission - probably the most important mission in the U.S. government today, as we begin to transition security from U.S. and I.S.A.F. forces to the Afghan National Security Forces.
This is one of the key reasons I elected to come to SIGAR when given the opportunity.
I want to thank Steven Trent, who served ably as acting inspector general, and his team. They have put SIGAR on the right path, and I intend to build upon that work.
I know this has been a difficult time within the agency. But I want you to know that my job is to help you do your work - and that is to save the taxpayers' money and improve vital government programs.
It is paramount that we respond to our customers - the Congress, the Defense Department, the State Department, USAID and the Justice Department - with timeliness and the utmost professionalism.
This is how we shall proceed:
We will be aggressive.
We will be accurate.
We will be fair.
And we will be smart.
In every circumstance - with everyone we deal with - we shall display the highest professional and ethical standards.
I have been a prosecutor and a congressional investigator. I started out as a local prosecutor in Dayton, Ohio. Like many of you, I became a "Fed." I joined the Justice Department's Organize Crime and Racketeering Section, and I prosecuted the entire leadership structure of the Cleveland La Cosa Nostra family.
Then I came to Washington, D.C., thinking I would stay for a year, year and a half.
That was 30 years ago.
Like many of you, I fell in love with Washington, with the work and some of the great leaders in Congress and the Executive Branch that I have had the pleasure and honor to work for -- leaders such as Senator Sam Nunn of Georgia, Representative Jim Turner of Texas, Senator John Glenn of Ohio and Representative John Dingell of Michigan.
I have had the privilege of serving on the staffs of several committees on the Hill, including the Senate Permanent Select Subcommittee on Investigations. I led many complex investigations there for Senator Nunn, who chaired that subcommittee, as well as the Senate Armed Services Committee.
And I also had the honor of serving as Chief Oversight Counsel for Representative Dingell when he chaired the House Committee on Energy and Commerce, during the 110th Congress.
I also helped run a think tank for the Department of Homeland Security, and most recently, I was a partner at a large international law firm headquartered in Washington - Aiken Gump Strauss Hauer and Feld.
I know many of you know this because you use the Web and have done your due diligence.
And I have been doing my due diligence over the past several weeks.
I have been talking to current and former members of Congress, and to congressional staffers.  To members of the press. To Executive Branch agencies.  And to the NGO community.
I am told that we are doing better - but that we can do more.
That we must be more aggressive in improving programs and in ferreting out waste, fraud and abuse.
And, that we have a limited amount of time in which to achieve these objectives.
I did not join SIGAR - nor did you - to write history books or chapters for some graduate thesis.
Nor did I join to issue press releases and be quoted in the newspapers.
We joined this venture to serve our country by doing the best we can - every day.
We are on the government's payroll to save the taxpayers' money, and to improve government efficiency.
It is an important mission. We are the only federal agency with this unique mission in the entire U.S. government.
This is an historic moment that you have agreed to participate in.
And it is an honor to help as much as I can.
Many people have asked me, what are my next steps?
I will be meeting with all of you, starting this week, to find out more about what you are doing, and what I can do to help SIGAR achieve its mission.
I have tremendous respect and admiration for those of you serving in Afghanistan, under difficult and often dangerous conditions. You are on the vanguard of this agency, and you are vital to the mission. I will soon visit Afghanistan, and I am looking forward to working closely with you.
I will be asking a lot of questions. I learned a long time ago that asking questions is one of the best ways to learn. And it's a great way to manage. I believe in M.B.W.A. - "management by walking around."
And I will be listening to you.
I do not hold myself to be the expert on Afghanistan or investigations or audits; rather, I look to all of you for this expertise.
I am not a micromanager. I manage by surrounding myself with smart people - people who are smarter than me -- and getting out of their way.
Now, here's what I promise to you:
That you have my support. That I will be your advocate. And that my door is always open.
Let me close by sharing one last principle that I've learned over the years - that you need to enjoy coming to work.
That doesn't mean it will be easy or fun every day. It won't be.
But it should be exciting and rewarding.
It's been said that the greatest measure of wealth is time. Time to do what you choose to do to have a fulfilling life. We have all chosen public service, to serve this great nation. My wish for all of you is great wealth for our future time together.
July 3, 2012
Press Releases
Speeches
Testimony Videos
Spotlight
SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
2530 Crystal Drive, Arlington, VA 22202
FOIA
Privacy Policy
Terms of Use
Link Disclaimer
Accessibility
Audit Reports
No FEAR Act